WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-7315

Ursula Owens Ohio
(Petitioner) Vv. (Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© lam filing this waiver on behalf of all respondents.

Oo only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

lama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

Tam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

siete | Ahuas C Mali

Date: 4/1/21

(Type or print) Name Katherine Elizabeth Mullin

© wr. © Ms. © ors. O Miss
Firm Cuyahoga County Prosecutor's Office
Address 1200 Ontario St., 8th Floor
City & State Cleveland, Ohio Zip 44113
Phone 216-698-6454 Email kemullin@prosecutor.cuyahogacounty.u:

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

 

ec:
